     Audit of the State of Pennsylvania
Administration of Disaster Assistance Funds
                                                                      U.S. Ikpartrncnt of IIon~cIandSccurit)
                                                                      3003 Chamblee-Tucker Road
                                                                      Atlanta, Georgia 30341




                                     July 6,2005


MEMORANDUM FOR:               Patricia G. Arcuri
                              Acting Regional Director, FEMA Region 111

FROM:
                              Field Office Director

SUBJECT:                      Audit of the State of Pennsylvania
                              Administration ofDisaster Assistance Funds
                              Audit Report No. DA-20-05


Attached for your review and follow-up are five copies of the subject audit report that was prepared
by an independent accounting firm, Clifton Gunderson LLP under contract with the Office of
Inspector General. In summary, Clifton Gunderson LLP determined that the Pennsylvania
Emergency Management Agency should improve certain financial and program mana,oement
procedures associated with the administration of disaster assistance funds.

On April 26,2005 your office responded to the draft report. Based upon your response, the findings
are closed and require no additional action. Should you have any questions, please contact David
Kimble or me at (770) 220-5242.

Attachments
B!     Clifton
       Gunderson LLP
       Certified Public Accountants & Consultants




Department of Homeland Security
Office of Inspector General
Washington, D.C.


Clifton Gunderson LLP has completed an audit of the Pennsylvania Emergency Management
Agency's (PEMA) management and administration of the Federal Emergency Management
Agency (FEMA) disaster assistance programs. The audit was conducted at the request of the
Department of Homeland Security, Office of Inspector General (OIG).

The purpose of the audit was to determine whether PEMA had 1) administered the FEMA
disaster assistance programs in accordance with the Stafford Act and applicable Federal
regulations, 2) complied with the FEMA-approved disaster assistance administrative plans, 3)
properly accounted for and expended FEMA disaster assistance funds, and 4) operated and
functioned appropriately to fulfill its administrative, fiscal, and program responsibilities.

The audit was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and accordingly included such tests of the accounting
records and such other auditing procedures as we considered necessary in the circumstances. We
were not engaged to, and did not perform a financial statement audit, the purpose of which would
be to express an opinion on specified elements, accounts, or items.

The audit took place during January through March 2004. The scope of the audit included
financial and program activities for twelve Presidential disaster declarations open as of
September 30, 2003. We reviewed all grants for Public Assistance, Hazard Mitigation and
Individual and Family Grants.

Very truly yours,

CLIFTON GUNDERSON LLP




William H. Oliver, CPA
Partner




 tel: 301-931-2050                                                                      Member   0,




 fax: 301-931-1710

                                                                                                      International
FEMA                                                                              Pennsylvania Emergency Management Agency
                                                                                                Commonwealth of Pennsylvania




                                                TABLE OF CONTENTS



                                                                                                                               PAGE

EXECUTIVE SUMMARY ........................................................................................................... 1 


BACKGROUND..................................................................................................................... 3 


OBJECTIVES. SCOPE AND METHODOLOGY ............................................................... 6 


FINDINGS AND RECOMMENDATIONS ................................................................................ 8 


     Financial Management ........................................................................................................... 8 

       Financial Status Reports ...................................................................................................... 8 


     Program Management ..........................................................................................................   10 

       State Share of Mission Assignment Costs ...........................................................................           10 

       Public Assistance Subgrantee Monitoring ..........................................................................            11 

       Other Needs Assistance (ONA) Administrative Plan ...................................................                          13 


ATTACHMENTS ..................................................................................................................... 15 


     A-1 .Sources and Applications of Funds .All Disasters....................................................... 16 

     A-2 .A-1 3 Sources and Applications of Funds by Disaster ........................................... 17 

     B.  Management Comments ................................................................................................... 29 

                                                       Pennsylvania Emergency Management Agency
                                                                     Commonwealth of Pennsylvania


                                       EXECUTIVE SUMMARY

Clifton Gunderson LLP has completed an audit of the Commonwealth of Pennsylvania
Emergency Management Agency's management and administration of disaster assistance
programs authorized by the Robert T. Stafford Disaster Relief and Emergency Assistance Act
(Public Law 93-288, as amended) and applicable Federal regulations. The objectives of the audit
were to determine if the Pennsylvania Emergency Management Agency (PEMA) had:

        administered FEMA disaster assistance programs in accordance with the Stafford Act and
        applicable Federal regulations,

        complied with the FEMA-approved disaster assistance administrative plans,

        properly accounted for and expended FEMA disaster assistance funds, and

        operated and functioned appropriately to fulfill its administrative, fiscal, and program
        responsibilities.

This report focuses on PEMA's systems and processes for ensuring that grant funds were
managed, controlled, and expended in accordance with the Stafford Act and the requirements set
forth in Title 44 of the Code of Federal Regulations (44 CFR). Although the scope of this audit
included a review of costs claimed for the declared disasters, a financial audit of those costs was
not performed. Accordingly, we do not express an opinion on PEMA's financial statements.
The sources and applications of funds for the disasters included in the audit are presented in
Attachment A of this report.

Our audit included twelve major disasters declared by the President of the United States between
March 1994 and September 2003. Eight of the disasters involved all three types of grant
programs - Public Assistance Grants (PA), Individual and Family ~ r a n t s '(1FG)lOther Needs
Assistance (ONA), and Hazard Mitigation Grants (HMG). The other four disasters each
involved two types of grant programs. Federal grant awards for the twelve disasters were about
$231 million. Federal expenditures through September 30, 2003 were approximately $224
million.

In accordance with our agreement with the Office of Inspector General (OIG), our audit focused
on PEMA's current program and financial management procedures and practices. During the
audit we attempted, to the extent possible, to identify the causes of each finding. We also made
recommendations that, if implemented properly, would improve PEMA's management, eliminate
or reduce weaknesses in internal controls, and correct noncompliance situations. The findings
summarized below are discussed in detail in the body of the report.



'Anlendments to the Stafford Act by Public Law 106-390 changed the IFG program. This type assistance is now
known as Other Needs Assistance.
                                                   Pennsylvania Emergency Management Agency
                                                                Commonwealth of Pennsylvania

Financial Management

1. Finarzcial Status Reports

   Information reported on Financial Status Reports (FSR) did not always agree with accounting
   system account balances andlor accurately reflect program activity. For the seventeen hazard
   mitigation and public assistance grant programs included in our review, we noted eight
   instances where information reported on the September 30, 2003 FSR did not agree with
   accounting system information. The December 31, 2003 FSR's for ONA programs under
   disasters No. 1485 and No. 1497 reported outlays and obligations were zero even though
   significant expenditures had been made under both programs.

Program Management

1. State share of mission assignment costs

   Pennsylvania had not reimbursed FEMA for its share of mission assignment costs under
   disaster No. 1294. Under this disaster direct Federal assistance was requested from the
   Environmental Protection Agency. The cost of the assignment was $239,535 with the
   Commonwealth's share being $59,884. The grantee had not paid its share because FEMA
   had not billed for the state share as required under Federal regulations. According to officials
   at FEMA's Disaster Finance Center, they are not billing mission assignments under disasters
   that occurred prior to FY 2001.

2. Public Assistance Subgrantee Monitoring

   PEMA is not requiring subgrantees to submit Quarterly Project Status Reports as required in
   the approved administrative plans. Further, PEMA has not developed policies and
   procedures to insure subgrantee monitoring activities are consistently documented. In the
   absence of periodic subgrantee progress reports, and no clear guidance governing
   documentation of subgrantee monitoring, management has no assurance that subgrantees are
   being appropriately monitored to insure achievement of performance goals and compliance
   with applicable Federal requirements.

3. Other Needs Assistance (ONA) Administrative Plan

   FEMA Region 111 approved administrative plans for ONA programs under disasters NO.
   1485 and No. 1497 were in conflict with current Federal regulations concerning the
   allowability of salary charges to grant administrative costs. FEMA Region III review of
   these plans did not identify non-compliant sections. The current plans, if followed, could
   result in ineligible costs being charged against ONA grants.
FEMA                                                Pennsylvania Emergency Management Agency
                                                                 Commonwealth of Pennsylvania



                                        BACKGROUND

Federal assistance is usually needed to supplement response efforts after major disasters and
emergencies. When Federal assistance is needed, a governor can request the President of the
United States to declare a major disaster and thereby make relief grants available through the
Federal Emergency Management Agency (FEMA), FEMA, in turn, can make grants to state
agencies, local governments, private citizens, nonprofit organizations, and Indian tribes or
authorized tribal organizations through a designated agency within the affected state.

Robert T. Stafford Disaster Relief and Emergency Assistance Act, as amended

The Stafford Act governs Presidentially declared disasters. Title 44 of the Code of Federal
Regulations (CFR) provides further guidance and requirements for administering disaster relief
grants awarded by FEMA.

The three major disaster programs addressed in this audit are:

       Other Needs Assistance Grants
       Public Assistance Grants
       Hazard Mitigation Grants

Other Needs Assistance (ONA) Grants are intended to provide funds to individuals or families
to permit them to meet those disaster-related necessary expenses or serious needs for which
assistance from other means is either unavailable or inadequate. To make assistance under this
program available to disaster victims, the Governor must express an intention to implement this
program. This expression of intent must include an estimate of the size and cost of the program.
The Federal share of the ONA program is 75%, and is made on the condition that the remaining
25% is paid from funds made available by the state.

Public Assistance (PA) Grants may be awarded to State and local governments, private non-
profit organizations or institutions, or Indian tribes or authorized tribal organizations. PA grants
can be used for debris removal, repaidreplacement of facilities, or emergency work necessary as
the result of a disaster. Following the declaration of a disaster inspection teams composed of
Federal, State, and local representatives prepare Project Worksheets (PW) for each project that
identifies the scope of eligible work and its estimated costs. FEMA obligates funds to the
grantee, and the grantee then approves subgrants based on applicants' approved PW. At least
75% of the cost is paid by FEMA. The remainder is paid by non-Federal sources.

Title 44 CFR calls for PA projects to be classified as either "small" or "large". The classification
amount is based on the approved estimate of eligible costs and is adjusted annually to reflect
changes in the Consumer Price Index for All Urban Consumers published by the Department of
Labor. Projects estimated to cost less than the classification amount are classified as small, and
projects estimated to be equal to or greater than the classification amount are classified as large.
FEMA                                                Pennsylvania Emergency Management Agency
                                                                  Commonwealth of Pennsylvania

For small projects the grant is based on an estimate of the work. For large projects, the final
grant is based on actual eligible costs.

To speed up payments to subgrantees for small projects, the Federal share of the cost is to be
disbursed as promptly as possible after approval by FEMA. Subgrantees of large projects submit
periodic requests to the state for funds to meet expenses incurred. When a project is completed,
the state determines and reports the final cost to FEMA. FEMA then adjusts the amount of the
large project to reflect the actual cost.

Hazard Mitigation Grants (HMG) are awarded to states to help reduce the potential for future
disaster damages. The state must submit a Letter of Intent to participate in the program and
subgrantees must submit a HMG proposal to PEMA. PEMA, as the grantee, is responsible for
setting priorities for the selection of specific projects, but each project must be approved by
FEMA. FEMA awards subgrants to state agencies, local governments, qualifying private
nonprofit agencies, Indian tribes, or authorized tribal organizations. The costs of the projects are
shared with FEMA with the Federal share not exceeding 75 percent of the costs. However, the
amount of Federal assistance under the HMG program is limited pursuant to Section 404 of the
Stafford Act.

Under the PA and HMG programs, FEMA may grant three types of administrative funds for
overseeing the program:

   An administrative cost allowance to the grantee to cover extraordinary costs directly
   associated with administering the program. The allowance amount is determined by a
   statutorily mandated sliding-scale percentage (ranging from one-half of one percent to three
   percent) applied to the total Federal disaster assistance awarded under the program. The
   allowance is for extraordinary costs such as those incurred for preparing damage survey or
   final inspection reports; processing project applications; conducting final audits and related
   field inspections; overtime; per diem; and travel expenses. The administrative cost
   allowance does not include regular time for employees.

2. State Management Costs to cover ordinary or regular expenses directly associated with the
   program.

3. Indirect costs based on a FEMA approved indirect cost allocation plan.

For the ONA program, the state may expend administrative costs not to exceed five percent of
the amount of the grant.

Pennsylvania Emergency Management Agency

The Pennsylvania Emergency Management Agency's (PEMA) mission is to coordinate state
agencies' efforts to support county and local governments in the areas of civil defense, disaster
mitigation and preparedness, planning, and response to and recovery from man-made or natural
                                                Pennsylvania Emergency Management Agency
                                                             Commonwealth of Pennsylvania

disasters. PEMA is headquartered in Harrisburg, Pennsylvania. They also have offices in
Hamburg, Selinsgrove and Indiana.

PEMA is an executive agency reporting directly to the Governor of the Commonwealth of
Pennsylvania. PEMA has approximately 140 employees organized into the Bureaus of:

       Recovery and Mitigation
       Operations and Training
       Plans and Preparedness
       Technical Services
       Administration

PEMA personnel managed the PA and HMG programs. Financial management responsibilities
were shared between PEMA and the Pennsylvania Office of the Budget, Comptroller Operations.
PEMA relied upon the Department of Public Welfare to manage the ONA program. Financial
responsibility for the ONA program resided with the Department of Public Welfare.
FEMA                                                      Pennsylvania Emergency Management Agency
                                                                       Commonwealth of Pennsylvania



                         OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of this audit were to determine if the Commonwealth of Pennsylvania (the
grantee) had:

        administered FEMA disaster and emergency assistance programs in accordance with the
        Stafford Act and applicable Federal regulations,
        complied with the FEMA-approved disaster assistance administrative plans,
        properly accounted for and expended FEMA disaster assistance funds, and
        operated and functioned appropriately to fulfill its administrative, fiscal, and program
        responsibilities.

The scope of the audit included grant programs within the following twelve declarations that
were open at September 30, 2003. These disasters were declared between March 1994 and
September 2003.

                                                                                    Grant Programs
                                 Declarations
                                                                              Status at September 30,2003
      Number           Date                DisasterEmergency                   PA      WGIONA         HMG
                                                                                            2




The cut-off date for the audit was September 30, 2003. However, we also reviewed more current
activities related to conditions found during our audit to assess current activity and determine
whether appropriate corrective actions had been taken.

Our audit fieldwork was initiated at the FEMA Region I11 Office in Philadelphia, Pennsylvania.
Region I11 has jurisdiction over FEMA disaster programs in several states, including the


 The Presidential declaration authorized other needs assistance and hazard mitigation funding, but as of 9/30/2003
no Federal funds had been obligated for these programs.
FEMA                                                     Pennsylvania Emergency Management Agency
                                                                      Commonwealth of Pennsylvania

Commonwealth of Pennsylvania.          Our methodology included interviews with FEMA
headquarters, regional office, and Commonwealth officials to obtain an understanding of internal
control systems and to identify current issues or concerns relative to PEMA's management of
disaster programs. Our audit considered FEMA and Commonwealth policies and procedures as
well as the applicable Federal requirements. Documentation received from PEMA, as well as
from FEMA headquarters, and the regional office was reviewed. The audit also included
discussions with PEMA officials concerning the Commonwealth's policies, procedures, and
processes for managing the grant programs.

W e selected and tested ONA cases administered by the Pennsylvania Department of Public
Welfare (DPW)' and representative projects at PEMA to help ensure that the disaster assistance
grants had been conducted in compliance with applicable regulations. PEMA's systems and
procedures were evaluated to identify systemic causes of internal control system weaknesses or
noncompliance situations. The views of officials at FEMA headquarters, regional officials,
PEMA and DPW officials were considered in writing this report. Our review included all
aspects of program management including application, approval, monitoring, reporting, and
program closure.

PEMA's policies and procedures for procurement, and property management, cash management,
and financial reporting were also evaluated. We reviewed PEMA's internal control systems and
evaluated PEMA's financial management system to determine compliance with the standards set
forth in 44 CFR 13.20. Our tests of financial transactions included: comparing financial records
with supporting documentation for sampled costs claimed for the ONA, PA, and HMG
programs, reviewing PEMA's system for allocating costs to disaster programs, and testing the
timeliness and accuracy of payments to ONA recipients, PA and HMG subgrantees, and vendors.

W e reviewed prior audits conducted within the timeframe of the disasters included in our scope.
This included Single Audit Act audits conducted in compliance with OMB Circular A-133. Our
audit scope did not include interviews with or visits to PEMA subgrantees or project sites. We
also did not evaluate the technical aspects of the repairs to disaster caused damage.

The audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We were not engaged to and did not perform a
financiai statement audit, the objective of which would be to express an opinion on specified
elements, accounts, or items. Accordingly, we do not express an opinion on the costs claimed
for the disasters under the scope of the audit. If we had performed additional procedures or
conducted an audit of the financial statements in accordance with generally accepted auditing
standards, other matters might have come to our attention that would have been reported. This
report relates only to the accounts and items specified. The report does not extend to any
financial statements of PEMA or the Commonwealth of Pennsylvania and should not be used for
that purpose.




4
    DPW managed the O N A program for the Commonwealth o f Pennsylvania.
FEMA                                                Pennsylvania Emergency Management Agency
                                                                 Commonwealth of Pennsylvania

                           FINDINGS AND RECOMMENDATIONS

Audit results are summarized below in two sections: Financial Management and Program
Management. These sections present findings and associated recommendations.

Financial Management

I . Financial Status Reports

   Financial Status Reports (FSR) information pertaining to Public Assistance and Hazard
   Mitigation grants was not always supported by accounting system account balances.
   Reported information on Other Needs Assistance grants did not accurately reflect program
   activity. This does not satisfy 44 CFR requirements and inhibits FEMA Region 111's ability
   to monitor grant program activity. Standards specified by 44 CFR 13.20 require grantee
   financial management systems to allow for complete and accurate financial reporting, and
   maintain complete and accurate accounting records. Grantees are required by 44 CFR 13.41
   to use Financial Status Reports to report the status of Federal grant funds.

   We traced Public Assistance and Hazard Mitigation Federal share amounts reported on the
   September 30, 2003 FSRs to supporting accounting records for each of the 17 open PA and
   HMG programs in our scope. The table below identifies 8 instances where the accounting
   system did not support the Federal share of obligations reported in the FSRs.

                         Program         Reported Federal    Accounting System   Difference
                                        Share of Obligations Federal Share of
                                                                Obligations
           1383   Public Assistance              $1,212,989                 $0     $1,212,989
                  Hazard Mitigation                 $38,238                 $0        $38,238 -
           1294   Public Assistance              $2,042,414        $1,343,930        $698,484
                  Hazard Mitigation                $683,515          $133,429        $550,086
           1289   Hazard Mitigation                 $15,472                 $0        $15,472
           1219   Hazard Mitigation                $215,072          $147,276         $67,796
           1130   Public Assistance                 $15,254                 $0        $15,254
           1093   Hazard Mitigation                $519,641           $645,306       $125,665

   The differences in the Federal share of obligations shown in the accounting system and
   reported on FSRs were caused by several discrepancies. According to the Chief of
   Pennsylvania's Office of the Budget, Comptroller Operations, Federal Accounting Division,
   the differences for Disasters 1383 through 1289 were attributed to the office ersoneously
   canceling some FY2001 balances instead of rolling them forward to FY2002. Explanations
   for other differences were:

       8     1219 HM - clerical ersor
             1130 PA - difference reflects administrative costs put into obligations on FSR, but not
             included in accounting system figures;
FEMA                                              Pennsylvania Emergency Management Agency
                                                               Commonwealth of Pennsylvania


         1093 HM - encumbrances exceeded authorized Federal amounts. The Federal share
         of obligations was reduced so the unobligated balance of Federal funds would equal
         zero.

  We also found that Financial Status Reports submitted to FEMA Region 111 did not
  accurately reflect ONA program expenditures under disasters No.1485 and No.1497.

  ONA program rules direct states to provide financial status reports [44 CFR 206.120(f)(2)(i)l
  that are to report the status of grant funds [44 CFR 13.411. The approved ONA
  administrative plans for disasters No.1485 and No.1497 state the Department of Public
  Welfare (DPW), Comptroller/Federal Reporting Office is responsible for the Quarterly
  Financial Status Reports while the ONA program is active. The Pennsylvania Office of the
  BudgetKomptroller Operations is responsible for the final FSR after the grant period ends.

  December 31, 2003 FSRs for ONA programs under disasters No.1485 and No.1497 do not
  accurately reflect the status of grant funds. The FSRs submitted to FEMA reported no
  expenditures under either program. Significant expenditures, however, had been made.
  ONA disbursements under disaster No. 1485 were over $475,000, and under No.1497 were
  over $325,000. While there had been no draw down of federal funds at the time of our
  review, the Federal government will eventually be asked to reimburse the Commonwealth for
  75% of these amounts.

  The DPW Comptroller, who is responsib!~, for ONA acco~ntinghnctiorrs whik thc p r o p m
  is active, did not file ONA Quarterly Financial Status Reports for the period ending
  December 3 1,2003 as required in the FEMA approved administrative plans. Instead, another
  office (Pennsylvania's Office of the Budget, Comptroller Operations) filed the required ONA
  reports on disasters No. 1485 and 1497, but the information was inaccurate. According to the
  Office of the Budget's Chief, the portions of the reports related to ONA program
  expenditures did not show any activity because the office does not have information on ONA
  program expenditures until such time as the DPW comptroller moves an amount into the
  federal share account for drawdown of Federal funds.

  Coizclusions and Recommerzdations

  The accounting system used to track and report on the status of FEMA Hazard Mitigation
  and Public Assistance grant funds does not 'accurately reflect programs' status. This is not in
  accordance with financial management system standards specified by 44 CFR 13.20 and
  constitutes a financial control weakness.

  In addition, the DPW Comptroller was not filing ONA program Quarterly Financial Status
  Reports as stipulated in the FEMA approved ONA Administrative Plan. When the Office of
  Budget filed the reports on behalf of the DPW, the reports did not accurately reflect the status
  of ONA grant funds because the Office did not have the ONA expenditure information.
FEMA                                              Pennsylvania Emergency Management Agency
                                                                Commonwealth of Pennsylvania

   The Acting Director, FEMA Region 111, should require PEMA to establish procedures to
   insure that:

   1. Public Assistance and Hazard Mitigation program figures reported in future Financial
      Status reports are fully supported by accounting records.

   2. Quarterly Financial Status Reports submitted to FEMA accurately reflect the status of
      ONA program grant funds, and are filed by the appropriate office as stipulated in the
      approved administrative plan.

   Management Response and Auditor's Analysis

   FEMA Region 111 and the grantee agreed with the finding regarding the inaccuracies in the
   Financial Status Reports (FSR). FEMA Region I11 stated it would review PEMA's
   established written procedures for complete and accurate FSRs submitted to FEMA for the
   PA, HM and ONA programs. Region 111 will insure that the procedures and required
   documentation are adequate to report both federal and non-federal dollars, unliquidated
   obligations, and how all expenses are linked back to the accounting system. In addition, they
   plan to conduct a site visit the 4" quarter FY 2005 to ensure procedures, as stated in PEMA's
   response, are in place and financial reports are completed accurately.

   We believe actions being taken by Region III and PEMA adequately resolves and closes the
  finding.

Program Management

1. State Share of Mission Assignment Costs

   Pennsylvania had not reimbursed FEMA its share of mission assignment costs as required
   under 44 CFR 206.208 and as specified in the FEMA-Commonwealth Agreement.

   When the state and local government lack the capability to perform or to contract for eligible
   emergency work or debris removal, the grantee may request that the work be accomplished
   by a Federal agency. Requests for direct Federal assistance shall be submitted to the
   Regional Director and shall include a written agreement that the state will provide
   reimbursement for the non Federal share of the cost of such work in accordance with the
   provisions of the FEMA-State agreement [44 CFR 206.2081.

   Pennsylvania had not reimbursed FEMA for its share of Environmental Protection Agency
   mission assignment costs under disaster No.1294, declared September 1999. The cost of the
   assignment was $239,535 with the Commonwealth's share being $59,884. The grantee had
   not paid the Commonwealth's matching share because FEMA had not requested payment
   from the state. According to the Team Leader, Other Federal Agency Payment Team at
   FEMA's Disaster Finance Center, a headquarters decision had been made to only bill for
   mission assignments for disasters declared in FY 2001 and later. The Office of the Inspector
FEMA                                              Pennsylvania Emergency Management Agency
                                                               Commonwealth of Pennsylvania


   General has found that management controls for mission assignments were not adequate. In
   a 2001 report the Inspector General concluded that a more active approach needed to be
   taken by the Chief Financial Officer to collect the outstanding state share of completed
   mission assignments. The Inspector General recommended that a review of the status of all
   mission assignments was needed to determine the amounts due FEMA, and that collection
   action be initiated as appropriate [H-06-01].

   This instance of noncompliance with the matching share requirement, mandated by the
   Stafford Act, was relevant to the audit objectives and included in this report. However, no
   recommendation is provided to address the condition cited because the appropriate
   recommendations have been included in the 2001 OIG report addressed to FEMA's Chief
   Financial Officer.

2. Public Assistance Subgrantee Monitoring

   PEMA had not developed policies and procedures specifying how the activities of
   subgrantees will be monitored and documented, and did not require subgrantees to submit
   quarterly project status reports as stipulated in PEMA's Public Assistance Administrative
   Plan.

   Grantees are responsible for managing the day-to-day operations of grant and subgrant
   supported activities. Grantees must monitor grant and subgrant supported activities to assure
   compliance with applicable Federal requirements and that performance goals are being
   achieved. Grantee monitoring must cover each program, function or activity [44 CFR
   13.40(a)]. The State shall develop a plan for the administration of the Public Assistance
   Program [44 CFR 206.207(b)]. This plan constitutes an agreement between FEMA and the
   State detailing how grant funds will be administered, and FEMA may take a variety of
   actions if a grantee materially fails to comply with its terms 144 CFR 13.431.

   The FEMA approved Public Assistance Administrative Plans state that the PEMA Public
   Assistance Staff will maintain contact with their applicant agents in order to monitor the
   progress of all approved project worksheets and provide assistance and guidance, as needed,
   throughout their recovery period. The plans also state that subgrantees will be required to
   submit quarterly project status reports on open large projects.

   PEMA officials told us that they have frequent contact with subgrantees to monitor project
   status. This was done in a variety of ways, with the most common being correspondence
   with the subgrantee usually in the form of email. Phone conversations, faxes and letters were
   also used. While we have no reason to doubt frequent subgrantee monitoring did occur, it
   was inconsistently documented.

   During our review of project files, we noted that in some files there were numerous
   documented contacts, but in other project files there was little evidence documenting periodic
   monitoring. PEMA does not have policies and procedures detailing how PA subgrantee
                                               Pennsylvania Emergency Management Agency
                                                            Commonwealth of Pennsylvania


monitoring should be documented, and PEMA's PA program officials stated they were
sometimes lax about documenting these activities.

Further, from our review of PA project files and discussions with PEMA officials, the
requirement for subgrantees to submit quarterly progress reports on large public assistance
projects was not being enforced. The PEMA Public Assistance Officer stated that PEMA did
not usually require subgrantees to submit the reports unless there may be a problem involving
noncompliance with Commonwealth or Federal regulations. However, this practice directly
contradicts the State's requirement stipulated in the PA Administrative Plan.

Our detailed review of public assistance projects included seven large projects where it
appeared quarterly progress reports were warranted. The time between FEMA approval of
these projects and final inspection ranged from 7 months to over 3 years. We found,
however, no evidence that subgrantee quarterly progress reports had been submitted on any
of these projects.

In discussions with PEMA officials they pointed out that in some cases circumstances could
negate the need for progress reports, and to require them would impose an unnecessary
administrative burden on the subgrantee. They cited the case of Ambler Borough where the
project had been approved in August 2001, but no work had been done. However, in this
instance, periodic progress reports would have documented the reason for the delay to ensure
that the grantee is aware of the relevant issues that should be addressed.

Conclz~sionsand Recornmendatiorzs

PEMA is not requiring subgrantees to submit quarterly large project status reports as
stipulated in the FEMA approved Pennsylvania Administrative Plan for the Public Assistance
Program. In the absence of periodic project status reports, and no clear guidance governing
documentation of subgrantee monitoring, management has no assurance that subgrantees are
being appropriately monitored to insure performance goals are being achieved, or compliance
with applicable Federal requirements are met.

The Acting Director, FEMA Region 111, should direct PEMA to:

1. Require that public assistance subgrantees submit quarterly progress reports as specified
   in the approved administrative plan.

2. Establish and implement policies and procedures to insure complete and consistent
   documentation of required 44 CFR subgrantee monitoring activities.

Management Response and Auditor's Analysis

FEMA Region I11 and the grantee agreed with the finding. The Region stated they had
discussed Public Assistance subgrantee monitoring with PEMA officials. PEMA has made a
commitment to revise its administrative plans to reflect refined policies and procedures.
                                                        Pennsylvania Emergency Management Agency
                                                                      Commonwealth of Pennsylvania


    Implementing these policies and procedures will ensure complete and consistent
    documentation of their contact with applicants and their subgrantee monitoring activities.
    Standard "Applicants Correspondence Log" and Memorandum for File" forms have been
    developed. Additionally, PEMA has recently developed the PEMA "Quarterly Large Project
    Status Report" to be submitted by subgrantees against all large projects on an individual
    basis. PEMA is moving forward with the Applicants' Briefing Process to include this form
    as part of the standard orientation process and to require it for all approved projects.
    According to Region 111, PEMA will need to develop an implementation plan to obtain
    reports for all subgrantees from past disasters and to seek a reporting process for small
    projects.

    We believe actions being taken by Region 111 and PEMA are adequate to resolve and close
    the finding.

3. Other Needs Assistance (ONA) Administrative Plan

    Pennsylvania ONA Administrative Plans contain provisions to charge certain state employee
    regular and overtime salaries to grant administrative expenses. However, Federal ONA
    program rules prohibit the charging of a state employee's regular salaries to the program.
    Funds provided to the State for administering Other Needs Assistance shall not be used to
    pay regular time for State employees, but may be used to pay their overtime costs [44 CFR
    206.120(f)(3)]. FEMA Region 111 approved Pennsylvania's Administrative Plans for ONA
    programs under disasters No. 1485 and No. 1497. Both plans are in conflict with the above
    cited requirement.

    Specifically, the plans state that for certain identified positions, salaries "will paid in
    accordance with the Commonwealth's wage rate for that position and will be charged to the
    administrative portion of the grant in accordance with the percentage of time this individual
    has dedicated to the particular disaster". The specific positions identified are the Grant
    Coordinating Officer, Grant Coordinating Officer Administrative Assistant, ONA
    Supervisors, Clerical staff, and Application Processors.

    At the time of our review, both ONA grants were ongoing and no Federal funds for
    administrative costs had been claimed. According to Department of Public Welfare officials,
    such cost will be claimed as part of grant closeout. States were allowed to claim employee
    regular time salaries as administrative expenses under the IFG program5, but such charges are
    not allowed under the ONA program. Commonwealth program officials stated they were not
    aware of this change when the plans were developed, and the administrative plans would be
    amended to conform to the new requirement.



  The Disaster Mitigation Act of 2000 consolidated Temporary Housing Assistance and Individual Family Grant
(IFG) Programs into a single program called Federal Assistance to Individuals and Households. Under this Act,
States were given the option of administering the Other Needs Assistance (ONA) portion of the program. Some
administrative costs States could claim under the IFG program are not allowed under the ONA program.
                                               Pennsylvania Emergency Management Agency
                                                            Commonwealth of Pennsylvania




The current Pennsylvania ONA Program Administrative Plan is not in compliance with
governing federal regulations and if followed, could result in ineligible costs being charged
against ONA grants. FEMA Region I11 review of these plans did not identify the non-
compliant sections.

The Acting Director, FEMA Region 111, should:

1. Strengthen ONA State Administrative Plan review and approval procedures to ensure that
   future plans comply with governing regulations.

2. Require PEMA to submit amended plans for review and approval, and ensure that regular
   salaries of state employees are not claimed as administrative costs under the ONA grants.

Management Resporzse and Auditor's Analysis

FEMA Region 111 agreed with the recommendation to strengthen the Region's ONA State
Administrative Plan (SAP) review process and stated that all future SAPs will re reviewed
very closely to assure that they are in total compliance with governing federal regulations.
They noted that the finding was specific to the SAPs associated with disasters DR-1485 and
DR-1497 and stated these plans had been re-written. The grantee also concurred in the
finding. SAP revisions were made to reflect compliance with 44 CFR 206(f)(3) and
submitted to FEMA Region 111 on April 12, 2004. FEMA Region I11 acknowledged and
approved the revisions.

The actions taken by the Director, Region 111 and the grantee are adequate to resolve the
conditions cited, and the finding is considered resolved and closed.
FEMA         Pennsylvania Emergency Management Agency
                           Commonwealth of Pennsylvania




       ATTACHMENTS
FEMA                                                       Pennsylvania Emergency Management Agency
                                                                         Commonwealth of Pennsylvania


                                                                                            Attachment A-1

                                  Sources and Application of Funds
                                     As of September 30,2003
                                            All Disasters




                                                Public         Individual          Hazard
                                              Assistance      FamilyIONA          Mitiqation       Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)                $ 167,592,532 $ 14,213,178 $ 42,042,975 $ 223,848,685
 State Share                              $ 55,305,536 $ 4,690,349 $ 13,874,182 $ 73,870,067
Total sources of funds                    $ 222,898,068 $ 18,903,527 $ 55,917,157 $ 297,718,752



Undrawn Federal Authorization             $     5,427,544 $        70,000 $         1,581,970 $     7,079,514


Application of Funds (Expenditures)
 Federal Share                            $ 167,585,169 $ 14,213,178 $ 42,137,966 $223,936,313
 State share                              $ 54,097,763 $ 4,568,895 $ 13,628,567 $ 72,295,225
Total Application of Funds                $221,682,932 $ 18,782,073 $ 55,766,533 $296,231,538


Balance of Federal Funds on     and^      $         7,363 $                 0 $       (94,991) $      (87,628)




Numbers in parenthesis indicate Commonwealth expenditures at this date exceeded Federal fund drawdowns.


                                                     16 

FEMA                                                        Pennsylvania Emergency Management Agency
                                                                         Commonwealth of Pennsylvania


                                                                                              Attachment A-2

                                         Sources and Application of Funds
                                           As of September 30,2003
                                                Disaster No. 1015
                                            Declared March 10,1994


                                                 Public             Individual          Hazard
                                               Assistance            Family            Mitiqation           Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Fed Share (Smartlink)
 State Share
Total sources of funds



Undrawn Federal Authorization              $                0   $                0 $        69,863      $       69,863



Application of Funds (Expenditures)
 Federal Share                             $     68,922,499 $                    0 $     10,559,517 $        79,482,016
 State share                               $     22,183,343 $                    0 $      3,408,893 $        25,592,236
Total Application of Funds                 $     91,105,842 $                    0 $     13,968,410 $       105,074,252



Balance of Federal Funds on       and'     $                0   $                0 $       (69,863) $           (69,863)

Program Status September 30,2003                     Closed                   NIA                Open




'Numbers in parenthesis indicate Commonwealth expenditures at this date exceeded Federal fund drawdowns.
                                                           Pennsylvania Emergency Management Agency
                                                                        Commonwealth of Pennsylvania


                                                                                          Attachment A-3

                                   Sources and Application of Funds
                                     As of September 30,2003
                                          Disaster No. 1093
                                     Declared January 21,1996


                                              Public         Individual       Hazard
                                            Assistance         Family        Mitiaation      Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)                 $ 65,491,306 $ 7,522,117 $ 20,922,288 $ 93,935,711
 State Share
Total sources of funds



Undrawn Federal Authorization              $   1,345,290$              0 $      544,769 $ 1,890,059


Application of Funds (Expenditures)
 Federal Share                             $ 65,491,306 $ 7,522,117 $ 20,947,416 $ 93,960,839
 State share                               $ 21,235,123 $ 2,389,265 $ 6,789,863 $ 30,414,251
Total Application of Funds                 $ 86,726,429 $ 9,911,382 $27,737,279 $1 24,375,090



Balance of Federal Funds on      and^      $           0    $             0$    (25,128) $      (25,128)

Program Status September 30,2003                    Open          Closed            Open




 Numbers in parenthesis indicate Commonwealth expenditures at this date exceeded Federal fund drawdowns.
FEMA                                                   Pennsylvania Emergency Management Agency
                                                                    Commonwealth of Pennsylvania


                                                                                      Attachment A-4

                                Sources and Application of Funds
                                   As of September 30,2003
                                        Disaster No. 1120
                                     Declared June 18,1996


                                            Public         Individual          Hazard
                                          Assistance         Family           Mitiaation         Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount

Sources of Funds
 Federal Share (Smartlink)
 State Share
Total sources of funds



Undrawn Federal Authorization         $            0 $              0 $                    0 $            0


Application of Funds (Expenditures)
 Federal Share                        $     1,074,259 $        403,010 $          697,172 $       2,174,441
 State share                          $       342,844 $        128,141 $          221,019 $         692,004
Total Application of Funds            $     1,417,103 $        531,151 $          918,191 $       2,866,445



Balance of Federal Funds on Hand      $         7,363 $                 0 $                0 $        7,363

Program Status September 30,2003                 Open           Closed               Open
FEMA                                               Pennsylvania Emergency Management Agency
                                                                Commonwealth of Pennsylvania


                                                                                         Attachment A-5

                                Sources and Application of Funds
                                    As of September 30,2003
                                        Disaster No. 1130
                                     Declared July 26,1996


                                            Public             Individual            Hazard
                                          Assistance             Family             Mitiqation           Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount


Sources of Funds
 Federal Share (Smartlink)
 State Share
Total sources of funds



Undrawn Federal Authorization



Application of Funds (Expenditures)
 Federal Share                        $     11,887,320 $          1,473,829 $          2,817,092 $       16,178,241
 State share                          $      3,827,713 $            468,021 $            908,341 $        5,204,075
Total Application of Funds            $     15,715,033 $          1,941,850 $          3,725,433 $       21,382,316



Balance of Federal Funds on Hand      $                0   $                0   $                0   $            0

Program Status September 30,2003                 Open                Closed                 Open
FEMA                                                Pennsylvania Emergency Management Agency
                                                                 Commonwealth of Pennsylvania


                                                                                         Attachment A-6

                                Sources and Application of Funds
                                   As of September 30,2003
                                        Disaster No. 1138
                                  Declared September 17,1996


                                            Public          Individual            Hazard
                                          Assistance          Family             Mitiqation           Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Fed Share (Smartlink)
 State Share                          $     1,205,614$         129,547 $             344,560 $        1,679,721
Total sources of funds                $     4,858,991   $      522,113 $           1,388,680 $        6,769,784



Undrawn Federal Authorization         $            0    $            0       $                0   $            0


Application of Funds (Expenditures)
 Federal Share                        $     3,653,377$          392,566 $          1,044,120$          5,090,063
 State share
Total Application of Funds



Balance of Federal Funds on Hand      $             0   $                0   $                0 $              0

Program Status September 30,2002               Closed            Closed                 Open
FEMA                                                   Pennsylvania Emergency Management Agency
                                                                    Commonwealth of Pennsylvania


                                                                                      Attachment A-7

                                Sources and Application of Funds
                                   As of September 30,2003
                                        Disaster No. 1219
                                     Declared June 8,1998


                                            Public         Individual          Hazard
                                          Assistance         Family           Mitiqation         Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)            $     1,868,703 $       199,856 $          237,343 $       2,305,902
 State Share                          $       616,672 $        65,952 $           78,323 $         760,947
Total sources of funds                $     2,485,375 $       265,808 $          315,666 $       3,066,849



Undrawn Federal Authorization         $            0 $              0 $           215,072 $        215,072


Application of Funds (Expenditures)
 Federal Share                        $     1,868,703 $       199,856 $           237,343 $       2,305,902
 State share                          $       593,238 $        66,710 $            73,278 $         733,226
Total Application of Funds            $     2,461,941 $       266,566 $           310,621 $       3,039,128



Balance of Federal Funds on Hand      $            0 $                  0 $                0 $            0

Program Status September 30,2003               Closed           Closed               Open
FEMA                                                   Pennsylvania Emergency Management Agency
                                                                    Commonwealth of Pennsylvania


                                                                                      Attachment A-8

                                Sources and Application of Funds
                                    As of September 30,2003
                                        Disaster No. 1289
                                   Declared September 1,1999


                                            Public         Individual          Hazard
                                          Assistance         Family           Mitiqation         Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)            $      785,818 $        171,553 $          274,178 $       1,231,549
 State Share                          $      259,320 $         56,612 $           90,479 $         406,411
Total sources of funds                $     1,045,138 $       228,165 $          364,657 $        1,637,960



Undrawn Federal Authorization         $            0 $              0 $            15,472 $          15,472


Application of Funds (Expenditures)
 Federal Share                        $       785,818 $        171,553 $          274,178 $       1,231,549
 State share                          $       248,525 $         68,820 $           88,189 $         405,534
Total Application of Funds            $     1,034,343 $        240,373 $          362,367 $       1,637,083



Balance of Federal Funds on Hand      $            0 $                  0 $                0 $            0

Program Status September 30,2003               Closed           Closed               Open
FEMA                                                   Pennsylvania Emergency Management Agency
                                                                    Commonwealth of Pennsylvania


                                                                                           Attachment A-9

                                Sources and Application of Funds
                                   As of September 30,2003
                                        Disaster No. 1294
                                  Declared September 18,1999


                                            Public           Individual            Hazard
                                          Assistance           Family             Mitiqation           Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)            $ 8,756,076 $            3,067,765 $          3,601,340 $ 15,425,181
 State Share                          $ 2,889,505 $            1,012,362 $          1,188,442 $ 5,090,309
Total sources of funds                $ 11,645,581 $           4,080,127 $          4,789,782 $ 20,515,490



Undrawn Federal Authorization         $     2,161,004 $               0       $       698,556 $         2,859,560



Application of Funds (Expenditures)
 Federal Share                        $     8,756,076 $        3,067,765 $          3,601,340 $ 15,425,181
 State share                          $ 2,824,920 $            1,008,720 $          1,167,754 $ 5,001,394
Total Application of Funds            $ 11,580,996 $           4,076,485 $          4,769,094 $ 20,426,575



Balance of Federal Funds on Hand      $            0     $                0   $                0   $            0

Program Status September 30,2003                 Open             Closed                 Open
FEMA                                                 Pennsylvania Emergency Management Agency
                                                                  Commonwealth of Pennsylvania


                                                                                   Attachment A-10

                                Sources and Application of Funds
                                   As of September 30,2003
                                        Disaster No. 1298
                                  Declared September 22,1999


                                          Public         Individual          Hazard
                                        Assistance         Family           Mitiqation           Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)            $          0 $        178,608 $          195,648 $           374,256
 State Share                          $          0 $         58,941 $           64,564 $           123,505
Total sources of funds                $          0 $        237,549 $          260,212 $           497,761



Undrawn Federal Authorization         $          0 $              0 $                0       $            0


Application of Funds (Expenditures)
 Federal Share                        $           0 $       178,608 $           195,648 $           374,256
 State share                          $           0 $        58,443 $            61,633 $           120,076
Total Application of Funds            $           0 $       237,051 $           257,281 $           494,332



Balance of Federal Funds on Hand      $           0 $                 0 $                0   $            0

Program Status September 30,2003                 NA           Closed               Open
FEMA                                                Pennsylvania Emergency Management Agency
                                                                 Commonwealth of Pennsylvania


                                                                                       Attachment A-11

                                Sources and Application of Funds
                                    As of September 30,2003
                                        Disaster No. 1383
                                     Declared June 21,2001


                                            Public         Individual            Hazard
                                          Assistance         Family             Mitiqation         Totals
Award Amounts
 Federal Share
 Localktate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)            $     5,145,811 $        803.874 $          1,764,140 $ 7,713,825
 State Share                          $     1,698,l 18 $       265,278 $            582,166 $ 2,545,562
Total sources of funds                $     6,843,929 $      1,069,152 $          2,346,306 $ 10,259,387



Undrawn Federal Authorization         $     1,862,599 $             0       $       38,238    $     1,900,837



Application of Funds (Expenditures)
 Federal Share                        $     5,145,811 $        803,874 $          1,764,140 $       7,713,825
 State share
Total Application of Funds



Balance of Federal Funds on Hand      $            0   $                0   $                0 $            0

Program Status September 30,2003                Open            Closed                 Open
FEMA                                              Pennsylvania Emergency Management Agency
                                                               Commonwealth of Pennsylvania


                                                                                Attachment A-12

                                Sources and Application of Funds
                                   As of September 30,2003
                                        Disaster No. 1485
                                    Declared August 23,2003



                                          Public      Other Needs         Hazard
                                        Assistance    Assistance         Mitiqation         Totals
Award Amounts
 Federal Share
 Locallstate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)
 State Share
Total sources of funds



Undrawn Federal Authorization          $     43,397   $    70,000 $                   0 $     113,397



Application of Funds (Expenditures)
 Federal Share                         $          0 $              0 $                0 $            0
 State share                           $          0 $              0 $                0 $            0
Total Application of Funds             $          0 $              0 $                0 $            0



Balance of Federal Funds on Hand       $          0 $              0 $                0 $            0

Program Status September 30,2003               Open          Open                 NIA
FEMA                                                         Pennsylvania Emergency Management Agency
                                                                           Commonwealth of Pennsylvania


                                                                                             Attachment Am13

                                        Sources and Application of Funds
                                          As of September 30,2003
                                               Disaster No. 1497
                                         Declared September 26,2003


                                                     Public       Other needs         Hazard
                                                   Assistance     Assistance         Mitiaation         Totals
Award Amounts
 Federal shareg
 Locallstate Share
Total Award Amount



Sources of Funds
 Federal Share (Smartlink)
 State Share
Total sources of funds



Undrawn Federal Authorization                  $             0 $               0 $                0 $            0


Application of Funds (Expenditures)
 Federal Share                                 $             0 $               0 $                0 $            0
 State share                                   $             0 $               0 $                0 $            0
Total Application of Funds                     $             0 $               0 $                0 $            0



Balance of Federal Funds on Hand               $             0 $               0 $                0 $             0

Program Status September 30,2003                            NIA            Open              Open




 The Presidential declaration authorized other needs assistance and hazard mitigation funding, but as of this date no
Federal funds had been obligated for these programs.
2. Other Xeebs Assistance (UNA) Adminisfsativc JJf
findin :: PHMA is nut requiring subgmntees fCr submit quarterly Iargc psujcct st;~.ttis
r€!.pOfis 75 stipttlaled in thc FEMA appravcd Pem~sgrlvartinAdmitlistralive Plaxl fur
      k issistancr Progmm. in ahseni-c of periodic project stahrs mpoas, sad no clear
guidan c governing t f ocunleltljlion oi'subgranrce trtonitoriug, mmagernci?t has no
;tssur-a :c that sihgmct~eesarc being apprupriatcly nrm~itctrcdta insure pei.fom:incc goals
arc ki:i iiciiicved, or compliance witlt applicable Federal rcqniremc.nfs are met.
T.-
k h c d is i copy of the sigoed Option Page.

Ifyou 11ai.e                please caii Eileen Fed& of my sf&& 215-93
               ily qi?estio~s,
 If=              AD 9fNISTRATIQN OF OTHER                                MEEDS ASSISTANCE CHOKE




                                                3    Percentage of fHP rnzxlrn~~rn
                                                                                award dedicated $orOMA   --   .


              -
              -i raris ~~~~~~~~Vchicke Repair A m c t u ~ L -N/P,.
              ---                       "
                                        -

         *      f a n s lortation-Vefiick Fieofacement - Actuat rep!acern~nivaie~eto a rnnx:mum as
              irtdica ?(; i t ) tile Kelly EIuc Book for the d & : ~ y & vehjcJc or $0 $7,625whichever is
              t h e f e ;er
                         ~ arnotirlt
         a    . F u ~ ~ W- Adcal
                            ~     expenses io a maximum d $5,580 per person


c O ~ ~ ~ %~i f 4D AUiHORIZiNG
                    N W ~ 
    SIGNATURE:                --*

                             ,'
                                            i
                                    +

     {   :
     \ !#f   ;.-f
                  , -*' . , r ' "
                   ./.-.,--
                      W - p L ,&&-
                             \d
                                                    ,1
--
 -           I--- -.-                                          ------.*     -j--"--   "
YLIBTSIS                     AU * I ? I - I Z I .R.pi~scrlz;;vi:
                                                 ~               Q$e         q&,.!-

                                                                                                    i "
                                                                                                    t.
r---        -
1 PEMA-DAP- I i
j            -j
    Revised iioi
                                                      I   F PENNSYLV
                                                     f ' MANAGEMEHT AGENCY




    TO:                                                   m e Agency



                                                          50
    FROM:
                                                          rofit   .




                                    i
    This is tht: urrent status o f Pro ca Worksheet # .
               a
